   July 19, 2002




Information
System Security
DoD Web Site Administration,
Policies, and Practices
(D-2002-129)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

JWRAC                 Joint Web Risk Assessment Cell
CERT                  Computer Emergency Response Team
          Office of the Inspector General of the Department of Defense
Report No. D-2002-129                                                         July 19, 2002
   (Project No. D2001AB-0116.002)

            DoD Web Site Administration, Policies, and Practices

                                    Executive Summary

Who Should Read This Report and Why? Web site developers and administrators,
public affairs officers, managers responsible for Web site content, and Web site users
should read the reports in this series. Those involved with any aspect of a Web site will
want to make sure that the content in their sites is up to date, accessible, tamper-proof,
and yet user friendly. The content must also be a true reflection of the policies of the
parent organization.

Background. This report is the third in a series that addresses Internet access, practices,
and policies. Previous reports covered Web site administration at the Air Force and the
Army. The Naval Audit Service issued a separate report based on the audit of Web-site
administration at the Navy and the Marine Corps. The “DoD Web Site Administration
Policy and Procedures,” implemented December 7, 1998, and updated April 26, 2001,
describes procedures for establishing, operating, and maintaining DoD unclassified Web
sites. The Policy requires heads of DoD Components to establish a process to identify
appropriate information for posting to Web sites and to ensure the review of all
information placed on publicly accessible Web sites for security levels of sensitivity and
other concerns before release. In addition, it requires the Assistant Secretary of Defense
for Command, Control, Communications, and Intelligence to ensure that DoD agencies
and the Services comply with the Policy.

On February 12, 1999, the Deputy Secretary of Defense approved the Joint Web Risk
Assessment Cell’s Concept of Operations, a plan to use Reserve Components’ assets to
conduct ongoing security and threat assessments of Components’ Web sites for
inappropriate information. The Concept of Operations identifies the Defense Information
Systems Agency as the executive agent for the Joint Web Risk Assessment Cell and
requires the executive agent to develop an implementation plan, operating procedures,
and a reporting mechanism.

Results. As of May 2002, 30 of the 200 disclosures on publicly accessible DoD Web
sites that the JWRAC previously identified between April and September 2001 as
inappropriate were still available for public viewing. As a result, DoD Web-site owners
are not providing consistent levels of assurance that only appropriate information is
posted on their publicly accessible Web sites. DoD must require DoD agencies and the
Services to remove from public view Web pages that contain information identified as
potentially inappropriate in the Joint Web Risk Assessment Cell reports. In addition,
DoD must establish a mechanism that adjudicates disagreements between the Joint Web
Risk Assessment Cell and Web-site owners on potentially inappropriate disclosures at
Web sites. Further, DoD must publish and comply with the standard operating
procedures of the Joint Web Risk Assessment Cell for discrepancy reporting and tracking,
and maintain an up-to-date database of reported violations.
Management Comments. The Deputy Assistant Secretary of Defense (Security and
Information Operations), who responded for the Assistant Secretary of Defense
(Command, Control, Communications, and Intelligence), nonconcurred with the
recommendation to suspend Web pages that contain potentially inappropriate information
until resolution. She stated that Web site postings are based on operational security
evaluations at the local commander level and, unless overturned by a higher authority,
their decision is final. The Deputy Assistant Secretary partially concurred to establish a
timely adjudication process. The Defense Information Systems Agency concurred with
the recommendation to publish the Joint Web Risk Assessment Cell’s Standard Operating
Procedures for Discrepancy Reporting and Tracking and to establish a database system to
track Web risk-assessment activities.

Audit Response. Of the 200 instances of information deemed inappropriate at DoD Web
sites, 30 were still available to the general public in May 2002, almost 8 months after the
Joint Web Risk Assessment Cell issued its September 2001 report that identified the
information. It is evident by the number of occurrences that the review process for
determining the appropriateness of data on Web pages has not been fully successful, and
that the existing process and procedures for local commanders to address the content of
information placed on their Web site are inadequate. Accordingly, information that may
place DoD at an increased risk must be suspended until resolved through an adjudication
process.




                                            ii
Table of Contents

Executive Summary                                                            i

Background                                                                  1

Objectives                                                                  3

Finding
     Inappropriate Information on Publicly Accessible DoD Web Sites          4

Appendixes
     A. Scope and Methodology
          Scope and Methodology                                              9
          Management Control Program Review                                  9
          Prior Coverage                                                    10
     B. Results of Reviews at Selected DoD Organizations                    12
     C. Report Distribution                                                 14

Management Comments
     Assistant Secretary of Defense for Command, Control, Communications,
       and Intelligence                                                     15
     Defense Information Systems Agency                                     17
     Defense Logistics Agency                                               19
Background

    DoD Web Page Policy. The “DoD Web Site Administration Policy and
    Procedures,” (the Policy) December 7, 1998, and updated April 26, 2001,
    describes procedures for establishing, operating, and maintaining DoD
    unclassified Web sites. The Policy requires heads of DoD agencies and the
    Services (DoD Components) to establish a process to identify information that is
    appropriate for posting to Web sites. The Policy requires that all information
    placed on publicly accessible Web sites is reviewed for security levels of
    sensitivity and other concerns before the information is released. Inappropriate
    data include data labeled “For Official Use Only,” “sensitive,” classified, and
    other information at one or more sites, which, when combined, would be sensitive
    or classified, and should not be released to the general public.

    The Policy requires DoD Components to establish procedures for management
    oversight and regular functional reviews of Web sites and to provide necessary
    resources to support Web site operations, including funding, staffing, and training.
    The Policy also requires an annual security assessment of Web sites. Moreover,
    Components must register each publicly accessible Web site with the Government
    Information Locator Service, which helps citizens identify, locate, and retrieve
    information about the Government. The Government Information Locator
    Service resides on the Defense Link, which is the official Web site for DoD and
    the starting point for finding military information about defense policy,
    organizations, functions, and operations online. In addition, the Policy requires
    the Assistant Secretary of Defense for Command, Control, Communications, and
    Intelligence to ensure that DoD Components comply with the Policy.

    The Policy defines a DoD Web site as a collection of information organized into a
    number of Web documents. The information is related to a common subject or set
    of subjects, including a Home Page, and is linked to subordinate information that
    is included on a Web page. A Home Page is the index or introductory document
    for a Web site. A Web site is developed and maintained with command
    sponsorship, approval, and editorial supervision over content.

    DoD Oversight of Web Content. On February 12, 1999, the Deputy Secretary of
    Defense approved the Joint Web Risk Assessment Cell (JWRAC) Concept of
    Operations, a plan to use Reserve Components’ assets to conduct ongoing security
    and threat assessments of Components’ Web sites. The JWRAC is responsible
    for analyzing data on DoD Web sites for information that poses potential or real
    threats to ongoing operations and DoD personnel.

    The Concepts of Operations identifies the Defense Information Systems Agency
    as the executive agent for JWRAC. As executive agent, the Defense Information
    Systems Agency exercises operational control over the JWRAC and provides it
    with legal support, facilities, and other administrative support. The Concept of
    Operations also requires the executive agent to develop an implementation plan
    and standard operating procedures for the JWRAC. The standard operating
    procedures should include procedures for identifying Web sites that contain
    potentially inappropriate information and define that information as a discrepancy.
    An implementation plan should also include a process to report the discrepancy to


                                         1
the DoD Computer Emergency Response Team (DoD CERT) and the responsible
Service or command entity. The standard operating procedures plan would also
outline a process to track, verify, and resolve the discrepancy. DoD established
the CERT in April 1999 to manage, control, monitor, and protect computer
networks and their infrastructure so that they would be available to support the
needs of DoD.

Draft Reporting and Tracking Procedures for the JWRAC. The Defense
Information Systems Agency prepared a draft “JWRAC Standard Operating
Procedures for Discrepancy Reporting and Tracking.” The procedures were
undated, but the DoD CERT verbally approved them for use in May 2001. The
procedures describe the process for recording and reporting the results of the
JWRAC. The procedures state that after the JWRAC analyzes data on DoD Web
sites for information that poses potential or real threats to ongoing operations and
DoD personnel, it must prepare an End of Tour Report and send it to the Chief,
DoD CERT.

The End of Tour Report contains a description of the discrepancies, actions
required, and a summary of findings. DoD CERT officials then record the
JWRAC information in its database, which is used to report, monitor, and verify
removal of inappropriate information. The JWRAC Team Chief also prepares the
Initial Notification Message (Message) from the information in the database and
sends it to the Chief, DoD CERT for review. The Chief, DoD CERT in turn
reviews the Message and sends it to the Joint Task Force-Computer Network
Operations who sends it to the organization whose Web site contains the
inappropriate information.

The Message contains the Web address of the discrepancy, a description of the
inappropriate information, an assessment of the risk, and a request to the Web-site
owner to remove or block the data from public access. The JWRAC Message
requires a response time of 12 hours for a critical violation, 48 hours for a major
violation, and 14 days for a minor violation. Violations are determined to be
critical if they consist of either classified or sensitive information or, when
combined with other sensitive information, they may have a significant
operational impact. Major violations consist of information that is “For Official
Use Only,” and minor violations consist of other information that may not be
posted on official Web sites that are available to the general public. The DoD
CERT, through a designated discrepancy tracking coordinator, monitors the
responses to the JWRAC, determines whether the discrepancies have been
resolved and, if so, closes out the tracking database. If the discrepancies have not
been resolved, the discrepancy tracking coordinator would bring the response to
the Chief, DoD CERT for escalation to closure. Escalating the discrepancy to
closure requires the Chief, DoD CERT to contact the Web-site owner and request
immediate removal of the inappropriate information.




                                      2
Objectives

     Our objective was to evaluate policies and practices for Web site administration
     and oversight at selected DoD agencies. Specifically, we reviewed how the
     Defense Logistics Agency; the General Counsel, Office of the Secretary of
     Defense; and the U. S. Space Command host official Web sites, and how the DoD
     agencies register the Web sites, monitor compliance with policy, and safeguard
     information displayed. In addition, we reviewed the DoD process for identifying
     and removing inappropriate information from publicly accessible DoD Web sites.
     We also evaluated the management control program as it relates to the overall
     objective.

     The results of our review on how selected DoD agencies register and monitor
     Web sites are included in Appendix B. The process for identification, removal,
     and oversight of inappropriate information on publicly accessible DoD Web sites
     warrants management attention and is discussed in the Finding section of this
     report. See Appendix A for a discussion of the audit scope and methodology, the
     management control program, and prior audit coverage.




                                        3
               Inappropriate Information on Publicly
               Accessible DoD Web Sites
               As of May 2002, 30 of 200 disclosures on publicly accessible DoD Web
               sites that the JWRAC previously identified as inappropriate were still
               available for public viewing because the Assistant Secretary of Defense
               (Command, Control, Communications, and Intelligence) did not establish:

                  •   a mechanism to remove potentially inappropriate information from
                      Web sites, and

                  •   an adjudication process to resolve differences between the Joint
                      Web Risk Assessment Cell and Web-site owners on whether
                      disclosures were inappropriate.

               In addition, the Defense Information Systems Agency had not completed
               the “JWRAC Standard Operating Procedures for Discrepancy Reporting
               and Tracking” in a timely manner. As a result, DoD Web-site owners
               were not providing consistent levels of assurance that only appropriate
               information is posted on their publicly accessible Web sites.

Information Reported on DoD Public Web Sites

     Results of the Joint Web Risk Assessment Cell. In November 2001, the
     JWRAC Team Chief provided us with eight End of Tour Reports, issued between
     April and September 2001, which contained 200 violations. We summarized the
     reports and identified the descriptions and the number of violations by Service and
     DoD agency as shown in Table 1.

                       Table 1. JWRAC-Verified Web Site Violations
                                                      Air    Marine    DoD
     Description of Violations        Army   Navy    Force    Corps   Agencies   Total
     Operation plans                   19     6       16       6         2        49
     For Official Use Only             11     7       12       4        26        60
     Military personnel information
      such as social security numbers   4        7    1        0        0         12
     Reserve Officer Training Corps
      fax numbers                      39        0    0        0        0         39
     Other                              2        2    3        0        8         15
     Details of radio frequencies       0        0    7        0        0          7
     Internal policies and procedures   2        2    0        0        9         13
     Root internet protocol addresses   0        0    0        0        5          5

       Total                         77      24      39       10       50        200




                                             4
Inappropriate Disclosures Remaining on Web Sites. In May 2002, we
accessed the 200 Web site locations to determine whether the information
reported by the JWRAC was still present. Of the 200 disclosures that were cited
in the 8 JWRAC reports, 30 (15 percent) still contained the inappropriate data.
We summarized the results in Table 2 by description of the violation, the number
of occurrences, the Service, and DoD agency.

      Table 2. JWRAC-Verified Web Sites With Violations Remaining

                                                     Air     DoD
Description of Violations           Army      Navy   Force   Agencies   Total
Operation plans                      0         0      2        0          2
For Official Use Only                3         0      2        7         12
Other                                0         2      0        4          6
Internal policies and procedures     2         0      0        4          6
Root internet protocol addresses     0         0      0        4          4
 Total                               5         2      4       19         30


There were 30 inappropriate disclosures of information remaining on DoD Web
sites that were still available to the general public in May 2002, almost 8 months
after the JWRAC issued the September 2001 report. We determined that 14 of the
30 (46 percent) Web sites contained potentially major violations because they
showed operation plans and “For Official Use Only” data.

Authority for Suspension or Removal of Inappropriate Information. The
JWRAC analyzed data on DoD Web sites and verified that Web-site violations
had occurred. The Team Chief, JWRAC reported the verified violations in an
End of Tour Report to the Chief, DoD CERT. The Team Chief informed us that
he then prepared the Messages for the violations, which the Chief, DoD CERT
reviewed and forwarded to the Joint Task Force-Computer Network Operations
who forwards it to the organizations whose Web sites contained the inappropriate
information.

The previously described process is contained in the draft “JWRAC Standard
Operating Procedures for Discrepancy Reporting and Tracking.” Officials stated
that, beginning in October 2001, the procedures would be used as a working
document while they were being refined and improved; however, the procedures
contained an underlying assumption that the Web-site owner would concur or that
resolution would occur within a short time frame, and that the Web-site owner
would remove the inappropriate information.

When differences arise between the Web-site owner and the JWRAC Team Chief
on whether a violation has occurred, the current practice is for the discrepancy
tracking coordinator to bring the Web-site owner’s response to the Chief, DoD
CERT for escalation to closure. However, a mechanism is needed to remove the
Web page containing the potentially inappropriate information from public view
until an adjudication authority makes a decision. Additionally, disagreements on
the appropriateness of the information require an adjudication authority to make a
timely decision.



                                     5
Discrepancy Reporting and Tracking

     Of the eight End of Tour Reports issued by the JWRAC, only one included all
     three categories of critical, major, and minor violations. Two of the reports
     included only major violations when they should also have included minor
     violations, two included critical violations when they should also have addressed
     major and minor violations, one addressed critical and major violations when they
     should also have addressed minor violations, and two reports did not categorize
     violations.

     The reports must address the type of violation because that is how the urgency of
     resolution and the suspense time frame for a response by the Web-site owner are
     determined. The JWRAC Team Chief could not explain this condition except to
     indicate that the reporting process was still evolving.

     In addition, officials stated that they were unable to provide us with the Messages
     sent to the Web-site owners for violations recorded in the eight End of Tour
     Reports because the CERT did not retain them. Also, the database maintained by
     the Chief, DoD CERT was not updated to show whether notifications were
     delayed, whether follow-up actions were required or taken on nonresponses, and
     whether the inappropriate information was still on the Web site. Officials
     informed us that the CERT planned to migrate the information to a new database
     but migration had not occurred because of funding constraints. They believed that
     many of the problems we identified were a result of the still-evolving reporting
     and recording process. The Chief, DoD CERT verbally approved the draft
     “JWRAC Standard Operating Procedures for Discrepancy Reporting and
     Tracking” for incident reporting for use in May 2001. Officials agreed that the
     draft would be used as a working document while the reporting procedures
     continued to be refined and improved. The present procedures, dated October 18,
     2001, were being updated.

     The JWRAC reports must be consistent in identifying the category of
     inappropriate disclosures to allow the DoD CERT to track Messages of potential
     violations and identify the response time required by Web-site owners. Also, the
     database must be kept current on the status of each finding, the timeliness of
     responses, and whether the issues were resolved and the inappropriate information
     was removed. A consistent and up-to-date database will provide an accurate
     assessment of Web site information and will allow DoD to take appropriate action
     to remove information that poses potential or real threats to ongoing operations
     and DoD personnel. In addition, the draft reporting procedures should be
     completed, published, and complied with because they provide DoD officials with
     a reporting and recording mechanism for inappropriate disclosures identified by
     the JWRAC.




                                          6
Summary

     Publicly accessible DoD Web sites must be informative and contain only
     information that is appropriate for public release. The JWRAC is responsible for
     analyzing data on DoD Web sites and informing the Chief, DoD CERT of
     potential or real threats to ongoing operations and DoD personnel. The DoD
     CERT Tracking Coordinator notifies the offending Web-site owner, monitors the
     owner’s responses, determines whether discrepancies have been resolved, follows
     up on nonresponses within the stated time frame, and maintains the tracking
     database. However, inappropriate information is not always removed.
     Additionally, disagreements on the inappropriateness of the information require a
     timely decision from an adjudication authority.

Management Comments on the Finding

     Although not required to comment, the Director of Information Operations, Chief
     Information Officer, Defense Logistics Agency provided comments to the draft
     audit report. She concurred with the finding and recommendations and suggested
     several editorial changes.

Recommendations, Management Comments, And Audit Response

     1. We recommend that the Assistant Secretary of Defense (Command,
     Control, Communications, and Intelligence):

             a. Suspend Web pages that contain potentially inappropriate
     information identified in the Joint Web Risk Assessment Cell reports as part
     of the adjudication process until resolution is achieved.

     Management Comments. The Deputy Assistant Secretary of Defense (Security
     and Information Operations) provided comments for the Assistant Secretary of
     Defense (Command, Control, Communications, and Intelligence). She non-
     concurred with the recommendation and stated that the Web site posting review
     process is part of Operations Security, which is governed by
     DoD Directive 5205.2, “DoD Operations Security Program.” The Directive
     recognizes that decisions regarding operational security are made by those
     responsible for mission accomplishment. Consequently, the Web posting
     responsibility is within the scope of the local commander’s authority unless a
     higher adjudicating authority overturns the decision on appropriateness of page
     content. The Deputy Assistant Secretary stated that because the information in
     dispute is not classified, there is no reason to preempt the decision of command
     authority pending resolution of any disagreement.

     Audit Response. Management comments were not responsive. Although the
     Deputy Assistant Secretary nonconcurred with the recommendation, it is evident
     that existing procedures used by local commanders are not adequate.
     Inappropriate information on 30 of 200 DoD Web site locations was still available
     to the general public in May 2002, almost 8 months after the JWRAC issued the
     September 2001 report. Of the 30 disclosures 14 (46 percent) contained


                                         7
potentially major violations because they showed operation plans and “For
Official Use Only” data. Additionally, unclassified data may through compilation
also pose security risk. Accordingly, information that may place DoD at increased
risk must be suspended until resolved through an adjudication process.

       b. Establish a corresponding mechanism in the “Joint Web Risk
Assessment Cell’s Standard Operating Procedures for Discrepancy
Reporting and Tracking,” that adjudicates disagreements on inappropriate
information between the Joint Web Risk Assessment Cell and Web-site
owner.

Management Comments. The Deputy Assistant Secretary partially concurred
with the recommendation. She agreed that a timely adjudication process is
required to resolve questions or disagreements on the appropriateness of
information posted on public Web sites. However, she stated that the Joint Web
Risk Assessment Cell’s Concepts of Operations gives the Director of the Defense
Information Systems Agency the responsibility and authority to establish
operating procedures. The Deputy Assistant Secretary agreed to work with
Defense Information Systems Agency to define a mechanism for adjudicating
disagreements over findings. Once it is defined, she agreed to include the
mechanism in the Joint Web Risk Assessment Cell’s Standard Operating
Procedures for Discrepancy Reporting and Tracking.

Audit Response. Although the Deputy Secretary partially concurred, her
proposed actions will meet the intent of the recommendation.

2. We recommend that the Director, Defense Information Systems Agency
complete, publish, and comply with the “Joint Web Risk Assessment Cell
Standard Operating Procedures for Discrepancy Reporting and Tracking,”
and maintain an up-to-date database of reported violations.

Management Comments. The Defense Information Systems Agency concurred
with the recommendation. Management stated that the Joint Web Risk
Assessment Cell’s Standard Operating Procedures for Discrepancy Reporting and
Tracking is under final review and expected to be published by June 2002.
Officials informed us that it was published July 1, 2002. Also, a database system
to track the Web risk-assessment activities is expected to be online in the first
quarter of 2003.




                                    8
Appendix A. Scope and Methodology

Scope and Methodology

     We visited the Defense Logistics Agency; the Defense Supply Center-Richmond;
     the General Counsel, Office of the Secretary of Defense; and the U.S. Space
     Command. We selected the Defense Logistics Agency because of the number of
     publicly accessible Web sites that were registered in the Defense Link. We
     selected the Defense Supply Center-Richmond because it is one the Defense
     Logistics Agency’s publicly accessible Web sites. We selected the General
     Counsel, Office of the Secretary of Defense and the U. S. Space Command
     because of the number of potential violations identified in the August 2001 report
     of the Office of the Deputy Assistant Secretary of Defense (Intelligence). We
     reviewed and evaluated the Web site policies and conducted discussions with
     officials in the Office of the Assistant Secretary of Defense (Command, Control,
     Communications, and Intelligence); the Defense Logistics Agency; the Defense
     Supply Center-Richmond; General Counsel, Office of the Secretary of Defense;
     and the U.S. Space Command to evaluate whether policies and practices for
     publicly accessible DoD Web sites were adequate. We reviewed records and
     documents dated from December 1998 through May 2002.

     General Accounting Office High-Risk Area. The General Accounting Office
     has identified several high-risk areas in DoD. This report provides coverage of
     the Information Security high-risk area.

     Audit Dates and Standards. We performed this audit from May 2001 through
     May 2002 in accordance with generally accepted government auditing standards.

     Use of Computer-Processed Data. We relied on computer-processed data
     without performing tests of system general and application controls to confirm the
     reliability of the database. However, not establishing the reliability of the
     database will not affect the results of our audit. We relied on judgmental
     sampling procedures to develop conclusions on this audit.

     Contacts During the Audit. We visited or contacted individuals and
     organizations within DoD. Further details are available on request.

Management Control Program Review

     DoD Directive 5010.38, “ Management Control Program,” August 26, 1996, and
     DoD Instruction 5010.40, “Management Controls Program Procedures,”
     August 28, 1996, require DoD managers to implement a comprehensive system of
     management controls that provide reasonable assurance that programs are
     operating as intended and to evaluate the adequacy of the controls.

     Scope of the Review of the Management Control Program. We reviewed the
     adequacy of DoD management controls over DoD policies and practices for Web
     site administration and oversight. In assessing those controls, we evaluated


                                          9
     policies and practices on how Government or other servers host official DoD Web
     sites, and how DoD registers and monitors Web sites for compliance with policy
     and safeguards sensitive information. We reviewed management’s self-evaluation
     applicable to those controls.

     Adequacy of Management Controls. We identified material management
     control weaknesses for the Assistant Secretary of Defense (Command, Control,
     Communications, and Intelligence) as defined by DoD Instruction 5010.40. DoD
     management controls were not adequate to prevent the continued disclosure of
     inappropriate data on DoD Web sites that were identified by the Joint Web Risk
     Assessment Cell. In addition, the process for reporting and maintaining a
     database of inappropriate information contained on publicly accessible Web sites
     was not being followed.

     The recommendations, if implemented, will improve the oversight and Web site
     administration processes. A copy of the report will be provided to the senior
     officials responsible for management controls in the Office of the Assistant
     Secretary of Defense (Command, Control, Communications, and Intelligence).

     Adequacy of Management’s Self-Evaluation. In FY 2000, the Assistant
     Secretary of Defense (Command, Control, Communication, and Intelligence) did
     not identify oversight of DoD and Service Web sites as an assessable unit and,
     therefore, did not identify or report the material management control weakness
     identified by the audit.

Prior Coverage

     During the last 5 years, GAO has issued two reports, the Inspector General of the
     Department of Defense has issued three reports, and the Naval Audit Service
     issued one report on the issue of Internet privacy.

General Accounting Office
     GAO Report No. GAO-01-147R, “Internet Privacy: Federal Agency Use of
     Cookies,” October 20, 2000

     GAO Report No. GAO/AIMD-00-296R (OSD Case No. 2074), “Internet Privacy:
     Comparison of Federal Agency Practices With FTC’s Fair Information
     Principles,” September 11, 2000




                                         10
Inspector General of the Department of Defense (IG DoD)
     IG DoD Audit Report No. D2001-130, “DoD Internet Practices and Policies,”
     May 31, 2001

     IG DoD Audit Report No. D2002-0062, “Air Force Web Site Administration,
     Policies, and Practices,” March 13, 2001

     IG DoD Audit Report No. D2002-0098 “Army Web Site Administration, Policies,
     and Practices, ” June 5, 2002

Naval Audit Service

     Naval Audit Service Report No. N2002-0034 “Department of the Navy Publicly
     Accessible Web Sites,” March 1, 2002




                                       11
Appendix B. Results of Reviews at Selected DoD
            Organizations
   Defense Logistics Agency. The Defense Logistics Agency has 28 publicly
   accessible Web sites that are registered in the Defense Link. In addition, the Chief
   Information Officer, Defense Logistics Agency issued “Defense Logistics Agency
   Internet Guidance,” August 28, 2000, that addressed Web sites’ administration.
   The guidance states that the Public Affairs Officer is the release authority for
   public information. The guidance requires Public Affairs approval in
   coordination with Internet Council approval before information is first posted on a
   Web site and also when significant changes occur to previously released
   information. In addition, the guidance established an Internet Council to
   periodically review DLA Web sites to ensure that only appropriate information is
   posted. The guidance also requires Web sites to be registered in the Defense
   Link.

   The Internet Council at the Defense Logistics Agency is responsible for ensuring
   compliance with Agency guidance and approving Web pages for posting.
   However, officials at the Defense Logistics Agency did not conduct the required
   annual reviews, train Web administration officials, and provide oversight to
   determine that only appropriate information was posted to its Web site. In
   addition, in August 2001, the Office of the Deputy Assistant Secretary of Defense
   (Intelligence) identified a Defense Logistics Agency Web site that contained “For
   Official Use Only” information. When we notified Web administration officials
   of the inappropriate information, they removed the document from the Web site.

   We visited a Web master at the Defense Supply Center-Richmond who maintains
   a Defense Logistics Agency Web site. The Web site was registered in the Defense
   Link, officials provided training for Web editors on Web site policy and
   procedures, and the Web master conducted annual content reviews.

   Because only one Web site contained inappropriate information and because
   officials removed it upon notification, agreed to conduct documented annual
   reviews, to develop a checklist to conduct the annual reviews, and to develop
   classes for training Web administrators, we considered those actions responsive
   and, accordingly, did not make a recommendation in this report. Since the draft
   report was issued, DLA began the annual review process and documentation by
   developing the checklist and also began to develop training for Web
   administrators. (See the Management Comments section for the complete text of
   management comments.)

   Office of the General Counsel. The Office of the General Counsel for the
   Secretary of Defense has four publicly accessible Web sites that are registered in
   the Defense Link. Although the General Counsel does not have written Web site
   policy, officials stated that they follow the 1998 DoD Policy; however, they did
   not conduct the required annual review.

   In August 2001, the Office of the Deputy Assistant Secretary of Defense
   (Intelligence) identified that the General Counsel’s Web sites contained


                                       12
21 postings that included the wording “For Official Use Only, Until Released
by….” The postings were statements of DoD officials before Congress. The
statements were released for public viewing by the congressional committee.
However, General Counsel officials did not delete the restrictive language before
posting it to their Web page.

During our review, officials issued written guidance to implement the 1998 DoD
Policy establishing a process for the release of information on the General
Counsel Web site. The guidance provided examples of information that should
not be posted on Web sites that are available to the public. Officials agreed to
conduct annual reviews and document the results. In addition, they removed the
restrictive language on Web pages that we identified as potentially inappropriate.
We viewed the Web pages and verified that the restrictive language had been
removed. Accordingly, we considered this a matter of interest and did not make a
recommendation.
U.S. Space Command. The U.S. Space Command has two Web sites that are
registered in the Defense Link. Officials developed a draft operating instruction
addressing the use of Internet and public Home pages. Because the U.S. Space
Command is a tenant organization on Peterson Air Force base, it follows Air
Force policy for establishing a Web site. This policy includes an initial review of
Web site information by the Privacy, Staff Judge Advocate, and Public Affairs
offices.

However, Web administrative officials had not conducted the required annual
reviews, established a training program for Web officials, or published policy for
Web page management. Also, in August 2001, the Office of the Deputy Assistant
Secretary of Defense (Intelligence) identified social security numbers at two U.S.
Space Command Web sites. The Web sites that contained the potential violations
were Canadian Forces Web sites that were linked to the Space Command site.
Canadian officials stated that they do not use social security numbers and could
not review the site’s content because the site had been removed. U.S. Space
Command officials deleted the link to the Canadian site because the site contained
outdated information and had been removed from public viewing. Officials
agreed to conduct annual reviews and document results, update and publish
guidance, require training for the Web master, and identify a process to establish
and update Web pages. Accordingly, we did not make any recommendations.




                                    13
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
General Counsel, Secretary of Defense

Unified Command
Commander, U. S. Space Command

Other Defense Organizations
Director, Defense Information Systems Agency
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          14
Assistant Secretary of Defense for Command,
Control, Communications, and Intelligence
Comments




                      15
16
Defense Information Systems Agency Comments




                    17
18
Defense Logistics Agency Comments




                     19
20
Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector General for
Auditing of the Department of Defense prepared this report. Personnel of the Office of
the Inspector General of the Department of Defense who contributed to the report are
listed below.

Mary L. Ugone
Bruce A. Burton
Thomas S. Bartoszek
Thomas J. Hilliard
Thelma E. Jackson
Carrie J. Gravely
Mandi L. Markwart
Jenshel D. Marshall
Jacqueline N. Pugh
